               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




 Opportunities for the Postal Service –
    Micro-Warehousing and Other
     Logistics Support Services




                                        March 13, 2014


MS-WP-14-003
March 13, 2014

MEMORANDUM FOR:              NAGISA M. MANABE
                             CHIEF MARKETING AND SALES OFFICER AND
                             EXECUTIVE VICE PRESIDENT




FROM:                        Janet M. Sorensen
                             Deputy Assistant Inspector General
                              for Revenue and Business

SUBJECT:                     Opportunities for the Postal Service – Micro-Warehousing
                             and Other Logistics Support Services
                             (Report Number MS-WP-14-003)

Attached are the results of our review of Opportunities for the U.S. Postal Service –
Micro-Warehousing and Other Logistics Support Services (Project Number
13RO008MS000). The Postal Service’s extensive reach and high level of brand
recognition allow customers to trust in its capabilities; therefore, the Postal Service’s
existing owned space and infrastructure could provide residential and business
customers with micro-warehousing and other logistics support services opportunities,
such as fulfillment and distribution activities. If the Postal Service can capitalize on this
environment, it can serve the public while increasing its revenue through these new
services.

If you have any questions or need additional information, please contact Joshua
Bartzen, acting director, Sales and Marketing, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Opportunities for the Postal Service – Micro-Warehousing                                            MS-WP-14-003
 and Other Logistics Support Services


                 Micro-Warehousing and Other Logistics Support Services

                                           Executive Summary

Micro-warehousing1 and other logistics                                            Highlights
support services are part of a $27 billion
market, which is continually growing.                       The Postal Service has an opportunity to
These services provide end-to-end                           generate additional revenue by offering
logistics solutions and offer supply chain                  micro-warehousing and other logistics
capabilities for business customers,                        support services.
including returns and inventory
management (such as storage of goods),                      Its extensive processing, retail, and
distribution services, order processing,                    transportation network – combined with its
and packaging of goods. International                       significant shipping capabilities – could
                                                            likely meet customers’ demands for one-
posts and U.S.-based private sector
                                                            stop micro-warehousing and logistics
companies operating in this market tend                     solutions to support e-commerce.
to offer a wide range of services. In a prior               Foreign suppliers selling goods in the U.S.
U.S. Postal Service Office of Inspector                     via e-commerce could be particularly well
General (OIG) report,2 we noted gaps in                     served by the Postal Service’s entry into
e-commerce fulfillment and end-to-end                       this market.
solutions, particularly for small
businesses. While many companies offer                      Several foreign posts have established
services for warehousing, pickup, and                       themselves in this market and are showing
pack and ship operations, smaller                           significant profitability. In one case, up to
businesses are more challenged in                           53 percent of annual revenue is acquired
                                                            through logistics services, including
integrating these various services.3
                                                            warehousing.
Foreign posts have been involved in            The Postal Service will face challenges in
these areas for several years — and            capitalizing on this niche market, primarily
since 1997 in Deutsche Post’s case —           due to legal constraints and its financial
but the U.S. Postal Service’s participation    condition. However, its extensive network
in the warehousing and logistics market        and shipping capabilities leave it well-
has been limited to researching                positioned to consider entering the micro-
opportunities for product diversification      warehousing and logistics support services
due to legislative constraints and its         market.
current financial position. However, if the
Postal Service were given the opportunity,
research has shown that warehousing and logistics services can provide a new means
of generating significant revenue. Foreign posts4 we researched generate up to
53 percent of their total annual revenue from logistics-based services, including

1
  We consider micro-warehousing a service available to local businesses and others involved in e-commerce to
expedite the movement of goods from businesses to consumers.
2
  OIG report, The Postal Service Role in the Digital Age, Part 2: Expanding the Postal Platform (Report Number
RARC-WP-11-003, dated April 19, 2011) pages 18 and 30.
3
  OIG report, Virtual Post Office Boxes, (Report Number MS-WP-13-002, dated April 17, 2013) page 10.
4
  Deutsche Post DHL, Japan Post, Swiss Post, China Post Group, Groupe La Poste, and Canada Post.
                                                           i
Opportunities for the Postal Service – Micro-Warehousing                                                MS-WP-14-003
 and Other Logistics Support Services


warehousing. If the Postal Service could attain 5 percent of the U.S. micro-warehousing
and logistics support market, it could potentially generate $1.35 billion of revenue
annually.5

The Postal Service’s platform is well-positioned to serve as a one-stop solution to
connect distributors and customers, both physically and electronically. The Postal
Service could, for example, offer a suite of services to smaller companies with goods
that do not sell quickly and require long-term warehousing. This service would also be
particularly beneficial to foreign businesses offering goods in the U.S. via e-commerce
as it would allow them to store and ship their merchandise quickly and inexpensively. All
of these businesses could benefit from the Postal Service’s storage options, shipping
capabilities, and its far-reaching physical and transportation network. Further, recent
network consolidation efforts have left a significant amount of unused space at post
offices and mail processing facilities nationwide that could be used for warehousing
services.

The Postal Service currently faces challenges in establishing micro-warehousing and
other logistics support services. First, the Postal Accountability and Enhancement Act of
2006 prohibits the Postal Service from providing new nonpostal services that did not
exist as of January 1, 2006.6 However, legislation introduced in the Senate in
August 2013 would authorize the Postal Service to expand its nonpostal services if
these services meet certain criteria such as, utilizing the Postal Service’s processing,
transportation, delivery, or retail networks or its technology.7 In addition, legislation
introduced in the House of Representatives in July 2013 would specifically allow the
Postal Service to offer warehousing.8 Second, the Postal Service’s structure as a self-
funding organization creates financial challenges that many foreign posts do not have,
as they are to some extent financially supported by their governments, or receive
subsidies from other services offered by their post which could be used to support
micro-warehousing.

Though the logistics market is highly competitive, with many established providers, it
continues to quickly change and expand in new ways. Micro-warehousing may be seen
as the tip of the iceberg when considering the plethora of logistics support services
offerings that could work in conjunction with this service. Using the excess space from
network consolidation efforts and potential implementation of the virtual Post Office box
(which provides customers with an address to which they can redirect mail and
parcels),9 the Postal Service has an opportunity to generate additional revenue and
diversify its portfolio of services. Diversification alone will not resolve the Postal
Service’s financial situation; but it can play an important role in the long-term
sustainability of the organization.


5
  We did not calculate the amount or availability of space required by the Postal Service to attain this market share.
6
  Postal Accountability and Enhancement Act (Public Law 109-435, December 20, 2006).
7
  Postal Reform Act of 2013 (S. 1486), August 1, 2013.
8
  Innovate to Deliver Act of 2013 (H.R. 2690), July 17, 2013.
9
  OIG report, Virtual Post Office Boxes (Report Number MS-WP-13-002, dated April 17, 2013) page 2.
                                                            ii
Opportunities for the Postal Service – Micro-Warehousing                                                          MS-WP-14-003
 and Other Logistics Support Services


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Micro-Warehousing ......................................................................................................... 2

Foreign Posts’ Logistics Services .................................................................................... 4

Challenges Facing the Postal Service ............................................................................. 7

Conclusion ...................................................................................................................... 8
Opportunities for the Postal Service – Micro-Warehousing                                                 MS-WP-14-003
 and Other Logistics Support Services



Introduction

The U.S. Postal Service has an extensive processing, retail, and transportation network,
as well as significant shipping capabilities. It also has a presence in most towns in the
U.S., and an excess of about 280 million square feet of space at mail processing
facilities and post offices nationwide. Much of this surplus interior space is contiguous
with active postal operations and, therefore, cannot be sold or given away. But the
Postal Service could consider alternative uses for its surplus space to generate
additional revenue. A 2010 presidential memorandum10 supports this approach, calling
for better use of federally owned real property assets and reduced maintenance costs
for unneeded and underused federal buildings. Current law prohibits the Postal Service
from providing new nonpostal services that did not exist as of January 1, 2006.11
However, legislation introduced in the Senate in August 2013 would authorize the
Postal Service to expand its nonpostal services if they meet certain criteria, such as
utilizing the Postal Service’s processing, transportation, delivery, or retail network or its
technology.12 In addition, legislation introduced in the House of Representatives in
July 2013 would specifically allow the Postal Service to offer warehousing.13

Revenue generated in the U.S. warehousing and storage industry in 2012 was
estimated to be $27 billion14 and the industry is expected to experience modest growth
over the next 2 years.15 Warehouse and storage facilities primarily store general
merchandise, refrigerated goods, and other products. Due to the growth of e-commerce,
warehouse designs continue to evolve to meet the changing requirements of the
industry.

By broadening its revenue stream to include warehousing services for small businesses
— known as micro-warehousing — the Postal Service would follow the examples of
some foreign posts. The Postal Service, with its nationwide operations, extensive
infrastructure, and shipping capabilities, could offer various options to help smaller
companies. Because it has a presence in most towns in the U.S., it could provide the




10
   Presidential Memorandum, Disposing of Unneeded Federal Real Estate, June 10, 2010.
11
   Postal Accountability and Enhancement Act (Public Law 109-435, December 20, 2006). This prohibition holds true
regardless of whether the nonpostal service is offered at a postal facility or at one the Postal Service leases. If these
micro-warehousing and other logistics support services are considered to be postal services, then the laws governing
the Postal Service’s general powers would be relevant.
12
   Postal Reform Act of 2013 (S. 1486), August 1, 2013.
13
   Innovate to Deliver Act of 2013 (H.R. 2690), July 17, 2013.
14
   Revenue generated by the U.S. Warehousing and Storage Industry is overshadowed by the global warehousing
and storage industry, which experienced a significant growth in the past 5 years and is forecasted to reach an
estimated $709.7 billion in revenue in 2017. Warehousing & Storage Industry Profile, June 3, 2013, and U.S. Census
Bureau News, June 6, 2013.
15
   Warehousing & Storage Industry Profile, downloaded, June 3, 2014.
                                                       1
Opportunities for the Postal Service – Micro-Warehousing                       MS-WP-14-003
 and Other Logistics Support Services



warehousing space a small business may need to house merchandise in local markets.
Further, the Postal Service could provide value by meeting customers’ demands to
receive goods more quickly and inexpensively. Foreign suppliers operating in the U.S.
via e-commerce could be particularly well served by the Postal Service’s entry into this
market.

The Postal Service also has a trusted and well-known brand. Its reputation could be a
competitive advantage in the fragmented warehousing industry where the 50 largest
companies generate about 40 percent of revenue.16 In addition, there may be a low
barrier to entry into this market that could benefit the Postal Service. Exporters,
manufacturers, or local merchants could lease warehouse17 space and distribute goods
themselves or could choose to use warehousing logistics services, allowing the Postal
Service to receive products, and inspect, palletize, store, and maintain inventory.

Through network consolidation efforts, the Postal Service is currently studying existing
facilities to determine how to best optimize and consolidate operations. This may result
in additional excess facility space. This analysis will determine whether it would be
financially feasible to retain the remaining unoccupied properties and repurpose them or
more advantageous to out-lease or sell them. Legal requirements and financial
challenges limit what the Postal Service can do with its property but it will have
opportunities to use some of this space productively. With that in mind, the Postal
Service should consider whether it makes economic sense to retain some of this excess
property for potential micro-warehousing services. The Postal Service could also
evaluate the viability of leasing additional facilities for micro-warehousing in areas where
it currently lacks a presence.

As reported in its 2013 Annual Report to Congress,18 the Postal Service has 320 mail
processing facilities; 35,434 post offices, stations, and branches; 211,684 vehicles; and
491,017 career employees. These attributes will appeal to companies wishing to use
the last mile reach of the Postal Service and could certainly be an asset in gaining
customers for a micro-warehousing service.

Micro-Warehousing

Micro-warehousing and logistics support services are part of a large and growing
market made necessary by the needs of a thriving small business population. These
services are end-to-end solutions that offer supply chain capabilities for business
customers, including returns and inventory management (such as storage of goods),
distribution services, order processing, and packaging of goods. International posts and
U.S.-based private sector companies operating in this market tend to offer a wide range
of services.

16
   Warehousing & Storage Industry Profile, June 3, 2013.
17
   A structure or room for storing merchandise or commodities.
18
   Postal Service, fiscal year 2013, Annual Report to Congress.
                                                          2
Opportunities for the Postal Service – Micro-Warehousing                                           MS-WP-14-003
 and Other Logistics Support Services



Large manufacturers typically conduct their own in-house warehousing operations.
However, in a prior U.S. Postal Service Office of Inspector General (OIG) report19 we
noted that there were gaps in e-commerce fulfillment and end-to-end logistics solutions,
particularly for small businesses. While many companies offer services for warehousing,
pickup, and pack and ship operations, smaller businesses are more challenged in
integrating these various services. Micro-warehousing could potentially help fill that void
for smaller-scale operations.

The Postal Service could capitalize on its extensive network and excess facility space to
store and process warehoused goods for individual or business customers. In
accordance with the presidential memorandum issued in June 2010, the Postal Service
could make better use of the federal government’s real property assets and reduce
costs associated with maintaining unneeded and underused federal buildings through
these warehousing and inventory processing activities. Facilities with a considerable
amount of space could be redeployed for micro-warehousing. Much of this surplus
space is contiguous with active postal operations and, therefore, cannot be sold or
given away because of mail security issues. The Postal Service could expand its
services to this area to help it generate more revenue. Further, by providing valuable
short- or long-term space for micro-warehousing, the Postal Service could more quickly
and less expensively move goods as consumers dictate. This would allow the Postal
Service to effectively deploy or redeploy excess space resulting from network
optimization efforts and use the current address management system as a means to
generate revenue. The Postal Service could also consider leasing space to best meet
the demand for micro-warehousing.

A number of U.S. companies offer similar micro-warehousing services for a fee,
integrating with major parcel shipment companies such as FedEx and United Parcel
Service. To participate in this flourishing area, the Postal Service could offer:

    Storage, shipping, and return services for other businesses.

    Use of excess space at its various postal facilities nationwide.

    Use of its network of post offices and processing facilities to offer business
     customers a complete end-to-end logistics solution.

The Postal Service is well-positioned to serve as a one-stop solution to connect
distributors and customers, both physically and electronically. In conjunction with virtual
PO box services, the Postal Service could offer space rental and shipping and return
services, primarily for small businesses that have inventory storage and shipping needs.
The businesses would pay a fee to the Postal Service to receive and store their
inventory at various postal facilities and would use a virtual PO box account to direct the

19
 OIG report, The Postal Service Role in the Digital Age, Part 2: Expanding the Postal Platform (Report Number
RARC-WP-11-003, dated April 19, 2011) page 10.
                                                         3
Opportunities for the Postal Service – Micro-Warehousing                                        MS-WP-14-003
 and Other Logistics Support Services



Postal Service to ship inventory from the storage facility to customers. The Postal
Service could also manage returns for these businesses via the virtual PO box.
International businesses offering goods online in the U.S. could particularly benefit from
the storage options and capabilities of the Postal Service and its far-reaching network. If
the Postal Service could attain 5 percent of the U.S. micro-warehousing and logistics
support market, it could potentially generate an additional $1.35 billion of revenue
annually.

Foreign Posts’ Logistics Services

A number of foreign postal organizations have partnered or coordinated with private
logistics companies to capitalize on the increasing demands of e-commerce.20 Their
experiences could be instructive to the Postal Service if it considers using its ubiquitous
delivery network and excess capacity to enter the warehousing market.

In response to the expanding needs of businesses and customers, many major foreign
posts have established and are continuing to strengthen value-added logistics
operations. Among the major foreign postal organizations, Deutsche Post DHL, Japan
Post, Swiss Post, China Post Group, Groupe La Poste, and Canada Post get a
significant portion of their total annual revenue through logistics activities, including
warehousing services. Table 1 describes some of the major foreign posts and the
approximate percentage of total revenue they acquired by providing logistics services.




20
  OIG report, The Global Logistics Revolution: A Pivotal Moment for the Postal Service (Report Number RARC-WP-
13-010, dated June 3, 2013) page 18.
                                                          4
Opportunities for the Postal Service – Micro-Warehousing                                              MS-WP-14-003
 and Other Logistics Support Services




                 Table 1: Logistics Market in Foreign Postal Organizations



                                                                  Approximate
                                                                 Percentage of
                                                                 Total Revenue
                                                Logistics            From
          Postal Organization                   Company            Logistics             Logistics Offered
                                                                                     Warehousing, distribution,
                                                                                     managed transport, and
                                                                                     other value-added
                                                                                     services, as well as
 Deutsche Post
                                              DHL                      53%           business process
 DHL
                                                                                     outsourcing, supply chain
                                                                                     management, and
                                                                                     consulting solutions.

                                                                                     Consulting services for
                                              Japan Post                             corporate logistics,
                                              Sankyu                                 information processing,
                                              Global                                 transportation, storage,
 Japan Post                                                            18%
                                              Logistics                              freight handling,
                                              Company,                               distribution processing,
                                              Ltd.                                   and packaging.

                                                                                     Both standardized and
                                                                                     tailored logistics solutions
 Swiss Post                                   PostLogistics            14%           for transporting goods and
                                                                                     warehousing logistics.

                                                                                     Storage, packing,
 China Post                                   China Post                             distribution, processing,
                                                                       14%
 Group                                        Logistics                              sorting, transportation, and
                                                                                     information services.
                                              Sofipost,                              Sorting the mail for
                                              Neolog,                                transportation,
 Groupe La
                                              Orium, and               10%           procurement logistics, and
 Poste
                                              Morin                                  reverse logistics.
                                              Logistics
                                                                                     Business-to-consumer,
 Canada Post                                  SCI                      2%            business-to-business, and
                                                                                     field-service logistics.
Source: Decision Analysis Partners’ research provided to the OIG based on available annual reports.

Note: Total revenue includes traditional postal offerings like mail, parcels, and Express Mail, as well as logistics
services. Figures are conservative. Posts may also offer services that could be considered logistics under a broader
definition.




                                                          5
Opportunities for the Postal Service – Micro-Warehousing                       MS-WP-14-003
 and Other Logistics Support Services



Deutsche Post DHL accumulated the highest percentage (53 percent) of its total annual
revenue through warehousing, distribution, managed transport, and value added
services, such as business process outsourcing, supply chain management, and
consulting services. Deutsche Post DHL remains the global market leader in contract
logistics, with a 7.8 percent market share in 2011. It led the market in key regions (North
America, Europe, and Asia Pacific) while rapidly growing in other markets (Brazil, India,
China, and Mexico).

Another example of foreign posts’ involvement in the warehousing/logistics sector is
Japan Post’s partnership with Sankyu Inc. to jointly establish Japan Post Sankyu Global
Logistics Company Ltd. The partnership provides a wide variety of international logistics
services ranging from small-lot to large-lot cargo. It offers these services to domestic
and overseas customers, primarily in Japan, China, and other countries in Asia.

In response to recent logistics outsourcing needs, Japan Post Sankyu Global Logistics
Company Ltd. began providing third-party logistics services in an integrated manner.
These services range from optimized logistics plans to the building and operation of
logistics systems, as well as consulting services relating to logistics improvements.
Additionally, the company offers a total logistics solution composed of a consulting
service for corporate logistics, information processing, transportation, storage, freight
handling, distribution processing, and packaging.

Even foreign posts that have gained a smaller percentage of their total annual revenue
through logistics activities continue to see the potential in providing
warehousing/logistics solutions. Canada Post, through its operating entity, the SCI
Group, offers expertise in business-to-consumer, business-to-business, and field
service logistics. SCI Group generated $162 million in revenue by helping Canadian
businesses reduce costs and improve services through the design, implementation, and
operation of efficient supply chain solutions. This represents 2 percent of Canada Post’s
annual revenue.

In conjunction with Canada Post, SCI Group’s future strategies include the expansion of
proven capabilities in focused services, such as e-commerce fulfillment, reverse
logistics, product life cycle solutions, and specialized transportation services.
Leveraging the scale and reach of Canada Post will also allow SCI to increase overall
market share within Canada.

These examples of successful foreign posts moving into the rapidly evolving logistics
market suggest the Postal Service could benefit from similar diversification. It could
partner with private businesses as a way to quickly jump into the logistics field. In
addition to raising revenue from logistics offerings, the Postal Service’s entry into this
flourishing market could have the added benefit of increasing mail and parcel volumes.
However, legislative constraints, paired with the Postal Service’s rigid organizational


                                                    6
Opportunities for the Postal Service – Micro-Warehousing                                             MS-WP-14-003
 and Other Logistics Support Services



structure, could make it more difficult to successfully capitalize on peripheral business
opportunities like logistics.21

Challenges Facing the Postal Service

Accenture analyzed the Postal Service’s portfolio diversification in 2010.22 Its report
noted the Postal Service’s lack of diversity and identified several challenges it will need
to overcome in order to offer a wider variety of products and services. For example,
some foreign posts, such as Japan Post, China Post Group, and Groupe La Poste are
to some extent financially supported by their governments, or receive subsidies from
other services offered by their post, affording them the time and resources to build their
businesses and relationships without relying on immediate returns. Foreign posts tend
to generate below average profitability compared to industry benchmarks. However, as
a self-funding organization, the Postal Service does not have the flexibility to operate at
a loss as it is developing a new business sector.

Further, diversification of the Postal Service’s products and services may prove difficult
due to its current financial condition, which results from a decrease in mail volume, high
labor costs, and limited access to cash for acquisition or investment. While
diversification alone cannot resolve the Postal Service’s immediate financial shortfall, it
will likely need to play a greater role in sustaining the organization so that it can
continue to fulfill its universal service obligation.

If the Postal Service chooses to move into warehousing, it could also be challenged in
its selection of warehouse design and management – two important elements of
successful warehousing and e-commerce ventures, according to industry experts.
Partnering with outside businesses offers advantages such as lower startup costs and
access to logistics expertise, but the Postal Service’s need to maintain the security of
ongoing operations might complicate partnership efforts. It might need to modify
facilities and, potentially, add additional space to accommodate employee access,
shared space, and information technology (IT) issues. The Postal Service has
established a cross-functional team23 to address how to generate future return on
investment, considering these challenges.

Finally, for the Postal Service to position itself for success in the warehousing industry, it
will need to make major alterations to its business model to fund new platforms. Support
from various stakeholders and legislative changes are essential to allow the necessary
time and resources for these changes to take shape.



21
   OIG report, The Global Logistics Revolution: A Pivotal Moment for the Postal Service (Report Number RARC-WP-
13-010, dated June 3, 2013) pages 18 and 20.
22
   Postal Service, Is Diversification the Answer to Mail Woes? The Experience of International Posts, February 2010.
23
   Consisting of Operations, Facilities, Postal Inspection Service, Delivery, Retail, IT, Labor, Finance, and
Maintenance.
                                                            7
Opportunities for the Postal Service – Micro-Warehousing                         MS-WP-14-003
 and Other Logistics Support Services



Conclusion

Opportunities exist for the Postal Service to offer warehousing and other logistics
support services, thereby generating additional revenue. Its far-reaching processing,
retail, and transportation networks, along with its significant shipping capabilities could
be leveraged to provide additional value to customers. The Postal Service could offer
warehousing services for the storage and processing of inventory. Foreign suppliers
could especially benefit from the Postal Service’s presence in most towns and its
potential to be a one-stop micro-warehousing and logistics solutions provider, delivering
goods quickly and inexpensively to the customer. Exploring these opportunities involves
challenges, including, potentially, legislative changes; however, diversifying into the
logistics marketplace could help ensure the long-term sustainability of the Postal
Service and provide new services to its customers.

As evidenced by the actions of several foreign posts, acquiring or partnering with
existing logistic providers can be a highly successful diversification strategy. Partnering
with logistics experts may ease the Postal Service’s transition into the logistics market
and allow it to offer services more quickly and with reduced financial risk. The Postal
Service could create a viable logistics platform by pairing its partners’ strengths with its
unmatched first- and last-mile capabilities.




                                                    8
